           Office of Inspector General




March 18, 2005

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT:         Audit Report – Surface Transportation – Bulk Mail
                 Center Highway Transportation Routes – Southeast Area
                 (Report Number NL-AR-05-005)

This report presents results of our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL002). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the Southeast Area.

The Postal Service could save about $6.6 million over the term of existing Southeast
Area bulk mail highway contracts by canceling, not renewing, or modifying 52 trips. The
savings represent potential funds that could be put to better use and will be reported as
such in our Semiannual Report to Congress. The Postal Service could eliminate or
modify the trips without negatively affecting service because trip volume was low and
mail could be consolidated on other trips. We recommended the vice president,
Southeast Area Operations, verify the actual cancellation, modification, or substitution of
the 52 trips.

Management agreed with our recommendation. They stated that they had already
started implementing all 52 changes, explained the changes involved negotiating with
the contractors or soliciting new contractors, and stated they would complete the
process by April 15, 2005. Management also agreed with our annualized savings
estimate. Management’s comments and our evaluation of these comments are
included in this report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. The OIG requests written confirmation when corrective
actions are completed. This recommendation should not be closed in the follow-up
tracking system until the OIG provides written communication that the recommendation
can be closed.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, or need additional information please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Highway                                 NL-AR-05-005
 Transportation Routes – Southeast Area


                                       INTRODUCTION
Background                    Bulk mail includes magazines, advertising, and
                              merchandise shipped by major mailers like publishers,
                              catalog companies, or on-line retail companies. It is
                              processed by a system of 21 bulk mail centers and other
                              facilities nationwide. The Postal Service spends more than
                              $500 million annually on contracts to transport bulk mail
                              over highway networks. Contracted routes are controlled by
                              individual Postal Service areas.

                              This report focuses on the routes controlled by the
                              Southeast Area and responds to a request from the vice
                              president, Networks Operations Management.

Objectives, Scope,            The objectives of our audit were to evaluate the
and Methodology               effectiveness of scheduled bulk mail center highway
                              transportation routes and to identify opportunities for cost
                              savings.

                              Using Postal Service computer-generated data, we
                              identified 966 trips operated under 139 Southeast Area
                              contracts that had at least one bulk mail center service
                              point. In preparation for our work, we provided area officials
                              and Postal Service managers with the list of Southeast Area
                              contracts we intended to audit. During our work, we
                              interviewed officials at headquarters and in the Southeast
                              Area; reviewed relevant Postal Service policies and
                              procedures; visited three bulk mail centers; interviewed
                              managers and employees; and observed and photographed
                              operations. We consulted with financial analysts, computer
                              analysts, and other subject matter experts; evaluated mail
                              volume and the type of mail carried; considered service
                              standards; and analyzed all 966 trips. We also discussed
                              our observations and conclusions with appropriate
                              management officials and included their comments where
                              appropriate.

                              We conducted work associated with this report from
                              July 2004 through March 2005 in accordance with generally
                              accepted government auditing standards and included such
                              tests of internal controls that we considered necessary
                              under the circumstances.




                                                    1
Surface Transportation – Bulk Mail Center Highway                                   NL-AR-05-005
 Transportation Routes – Southeast Area


Data Limitations              During our audit, we examined computer data in
                              management’s Transportation Contract Support System and
                              Transportation Information Management Evaluation System.
                              We did not audit or comprehensively validate the data;
                              however, we noted several control weaknesses that
                              constrained our work. For example, the Transportation
                              Information Management Evaluation System had missing
                              records and inaccurate trailer load volumes. Even though
                              data limitations constrained our work, we were able to
                              partially compensate by applying alternate audit procedures,
                              including source document examination, observation,
                              physical inspection, and discussion with responsible
                              officials. We also applied conservative principles to our
                              monetary impact estimates, and, accordingly, always
                              selected the most restrained assessment.

Prior Audit Coverage          Over a two-year period, the Office of Inspector General
                              issued ten audit reports covering evaluation of highway
                              contract routes, and has worked with the Postal Service to
                              identify 1,011 highway contract trip eliminations,
                              consolidations or modifications, potentially resulting in
                              savings of $50.5 million over the life of the contracts. The
                              Postal Service eliminated or modified most of these trips
                              without negatively affecting service or operational flexibility
                              because mail volume was low and mail could be
                              consolidated on other trips. For more detailed information
                              about these audits, see Appendix A.




                                                    2
Surface Transportation – Bulk Mail Center Highway                                    NL-AR-05-005
 Transportation Routes – Southeast Area


                                       AUDIT RESULTS
Contracted Bulk Mail          The Postal Service could save about $6.6 million over the
Center Highway Trips          term of existing Southeast Area bulk mail highway contracts
                              by canceling, not renewing, or modifying 52 trips. The
                              Postal Service could eliminate or modify the trips without
                              negatively affecting service because trip mail volume was
                              low, and mail could be consolidated on other trips. As
                              indicated below, about 62 percent of affected trips will
                              expire within one year. The other 38 percent have one to
                              three years remaining.

                                          PROPOSED NONRENEWALS AND CANCELLATIONS

                                        TRIP               AFFECTED      NUMBER     ESTIMATED
                                      CATEGORY               TRIPS       OF TRIPS    SAVINGS

                               Contracts expiring within
                               one year                     62 percent      32       $5,685,502

                               Contracts expiring in
                               one to three years           38 percent      20         878,080

                               All terminated trips        100 percent      52       $6,563,582



                              Postal Service policy requires transportation managers to
                              balance service and cost. Although managers continually
                              strive to optimize transportation through aggressive cost




  Highway transportation
  contractor departing the
 Memphis Bulk Mail Center
       July 12, 2004.




                              cutting efforts such as their breakthrough productivity
                              initiative, transportation requirements are dynamic and
                              constantly change. Consequently, the Postal Service could
                              attain additional savings through further service reductions



                                                      3
Surface Transportation – Bulk Mail Center Highway                                NL-AR-05-005
 Transportation Routes – Southeast Area


                              by not renewing unnecessary trips that are scheduled to
                              expire within one year, or by canceling unnecessary trips
                              that are currently contracted to continue for one to
                              three years. The savings we identified include savings from
                              nonrenewable trips, plus savings from trip cancellations net
                              of cancellation fees totaling approximately $125,440.

Cooperative Effort and        As a result of our continuing effort to partner with and bring
Rapid Implementation          value to the Postal Service, we had ongoing communication
                              with Southeast Area officials throughout this audit. After we
                              completed our analysis, we provided the Southeast Area
                              officials with a list of our specific trip proposals, and the
                              officials reviewed each proposal in conjunction with their
                              own assessment of area-wide network requirements. After
                              the area's review, we met with area officials, discussed our
                              proposals and area operational needs, and made
                              appropriate adjustments to our proposals. As a result of the
                              cooperative effort, the area agreed with the 52 proposals
                              outlined in Appendix B.

                              Network management is dynamic and transportation
                              requirements are continually changing and we thank the
                              area for their rapid review and planned implementation of
                              our proposals. The Postal Service will soon be realizing
                              transportation savings because of the area's quick action on
                              our proposals. The area will provide full documentation
                              when they have implemented all trip proposals.

Recommendation                We recommend the vice president, Southeast Area
                              Operations:

                                  1. Verify the actual cancellation, modification, or
                                     substitution of the 52 trips with which Postal
                                     managers agreed and give the date the action was
                                     taken.

Management’s                  Management agreed with our recommendation. They
Comments                      stated that they had already started implementing all
                              52 changes, explained that the changes involved
                              negotiating with the contractors or soliciting new
                              contractors, and stated that they would complete the
                              process by April 15, 2005. Management also stated that
                              they agreed with our annualized savings estimate.
                              Management’s comments, in their entirety, are included in
                              Appendix C of this report.


                                                    4
Surface Transportation – Bulk Mail Center Highway                              NL-AR-05-005
 Transportation Routes – Southeast Area




Evaluation of                 Management’s comments are responsive to our
Management’s                  recommendation. We applaud the immediate action taken
Comments                      by the Southeast Area, and we consider the actions the area
                              has taken or planned sufficient to address the issues we
                              identified in the finding.




                                                    5
 Surface Transportation – Bulk Mail Center Highway                                                                                       NL-AR-05-005
  Transportation Routes – Southeast Area


                                                   APPENDIX A. PRIOR AUDIT COVERAGE

                                                                               Number of                        Number of     Number of
                                                                                  Trips                         Trips With    Trips With Number of
                                                                     Report     Identified       Potential        Which         Which      Trips
                                                                   Final Issue     for            Savings      Management    Management Identified by
                  Report Name                        Report Number    Date     Elimination       Identified      Agreed       Disagreed Management

Highway Network Scheduling-Pacific Area             TD-AR-02-003    9/24/2002        158     $     4,500,417       76            34           48
Highway Network Scheduling-Northeast Area           TD-AR-03-002    11/25/2002        18            776,992        10             8
Highway Network Scheduling-Capital Metro Area       TD-AR-03-007    3/28/2003         34           1,144,218       20            14
Highway Network Scheduling-New York Metro Area      TD-AR-03-008    3/31/2003         32            470,123        12            20
Highway Network Scheduling-Southwest Area           TD-AR-03-010    7/11/2003        249           5,989,082       148           101
Highway Network Scheduling-Western Area             TD-AR-03-013    9/23/2003         70           2,721,530       30            40
Highway Network Scheduling-Southeast Area           TD-AR-03-014    9/26/2003        101          11,352,881       23            24           54
Highway Network Scheduling-Eastern Area             TD-AR-03-015    9/30/2003        181          10,577,367       128           53
Highway Network Scheduling-Great Lakes Area         NL-AR-04-003    3/29/2004         72           5,352,877       48            22            2
Bulk Mail Transportation Routes-Great Lakes Area    NL-AR-04-004    9/29/2004         96          7,660,533        49             7           40
                       Totals                                                        1011    $    50,546,020       544           323         144




                                                                                 6
Surface Transportation – Bulk Mail Center Highway                                                                    NL-AR-05-005
 Transportation Routes – Southeast Area



                                                APPENDIX B
                              TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                         PLANT MANAGERS AGREED

Effective
 Date of     End Date                                 Specific                  Annual    Estimated
   Last          of          HCR         Trip       Recommen-      Origin to    Budget     Contract   Cancellation     Estimated
 Change      Contract      Number       Number         dation     Destination    Cost       Cost         Fees         Cost Savings
6/15/2004    6/30/2005      30095         805        Whole Trip   Atlanta BMC   $70,433   $281,731        $0            $281,731
                                                                       to
                                                                  Birmingham
                                                                     P&DC
6/15/2004    6/30/2005      30095         806       Whole Trip    Birmingham    70,433     281,731         0             281,731
                                                                    P&DC to
                                                                  Atlanta BMC
 1/1/2004    6/30/2005      30118           1       Whole Trip    Atlanta BMC   20,255     81,019          0             81,019
                                                                    Annex to
                                                                  North Metro
                                                                     P&DC
 1/1/2004    6/30/2005      30118           2       Whole Trip    North Metro   19,889     79,557          0             79,557
                                                                    P&DC to
                                                                  Atlanta BMC
                                                                     Annex
 1/1/2004    6/30/2005      30118           7       Whole Trip    Atlanta BMC   20,255     81,019          0             81,019
                                                                    Annex to
                                                                  North Metro
                                                                     P&DC
 1/1/2004    6/30/2005      30118           8       Whole Trip    North Metro   19,889     79,557          0             79,557
                                                                    P&DC to
                                                                  Atlanta BMC
                                                                     Annex
 1/1/2004    6/30/2005      30118          13       Whole Trip    Atlanta BMC   20,255     81,019          0             81,019
                                                                    Annex to
                                                                  North Metro
                                                                     P&DC




                                                                   7
Surface Transportation – Bulk Mail Center Highway                                                                       NL-AR-05-005
 Transportation Routes – Southeast Area


Effective
 Date of     End Date                                 Specific                      Annual   Estimated
  Last           of          HCR         Trip       Recommen-         Origin to     Budget    Contract   Cancellation     Estimated
Change       Contract      Number       Number         dation       Destination      Cost       Cost        Fees         Cost Savings
1/1/2004     6/30/2005      30118         14         Whole Trip     North Metro     19,889     79,557        0              79,557
                                                                      P&DC to
                                                                    Atlanta BMC
                                                                        Annex
6/12/2004    6/30/2005      30190         801        Eliminate      Atlanta BMC     14,221    56,884          0             56,884
                                                     Saturday       to Huntsville
                                                                        P&DF
6/12/2004    6/30/2005      30190         802        Eliminate        Huntsville    14,221    56,884          0             56,884
                                                     Saturday          P&DF to
                                                                    Atlanta BMC
 7/1/2003    6/30/2005      30197         803        Eliminate      Atlanta BMC     21,498    85,990          0             85,990
                                                     Saturday         to Mobile
                                                                        P&DC
 7/1/2003    6/30/2005      30197         804        Eliminate          Mobile      21,498    85,990          0             85,990
                                                     Saturday         P&DC to
                                                                    Atlanta BMC
9/14/2003    6/30/2005      301U8           1       Whole Trip      Atlanta BMC     44,341    177,365         0             177,365
                                                                      Annex to
                                                                       Marietta
9/14/2003    6/30/2005      301U8           2       Whole Trip       Marietta to    48,635    194,539         0             194,539
                                                                    Atlanta BMC
                                                                        Annex
5/15/2004    6/30/2005      30291         801        Eliminate      Atlanta BMC     16,312    65,250          0             65,250
                                                     Saturday        to Skyland
                                                                       Station
5/15/2004    6/30/2005      30291         802        Eliminate         Skyland      16,312    65,250          0             65,250
                                                     Saturday         Station to
                                                                    Atlanta BMC
6/12/2004    6/30/2005      30310         801       Eliminate 10    Atlanta BMC     9,791     39,163          0             39,163
                                                     Holidays;        to Dallas
                                                      Increase          BMC
                                                    Truck size to
                                                         53'




                                                                     8
Surface Transportation – Bulk Mail Center Highway                                                                         NL-AR-05-005
 Transportation Routes – Southeast Area


Effective
 Date of     End Date                                  Specific                      Annual    Estimated
   Last          of          HCR         Trip        Recommen-         Origin to     Budget     Contract   Cancellation     Estimated
 Change      Contract      Number       Number          dation        Destination     Cost        Cost        Fees         Cost Savings
6/12/2004    6/30/2005      30310         802        Eliminate 10     Dallas BMC      9,791      39,163        0              39,163
                                                      Holidays;        to Atlanta
                                                       Increase           BMC
                                                     Truck size to
                                                          53'
6/12/2004    6/30/2005      30310         803         Eliminate       Atlanta BMC    50,912     203,649         0             203,649
                                                      Saturday;         to Dallas
                                                    Increase truck        BMC
                                                      size to 53'
6/12/2004    6/30/2005      30310         804         Eliminate       Dallas BMC     50,912     203,649         0             203,649
                                                      Saturday;        to Atlanta
                                                    Increase truck        BMC
                                                      size to 53'
4/24/2004    6/30/2005      30313         801        Whole Trip;      Atlanta BMC    138,090    552,359         0             552,359
                                                       Increase            to
                                                     trailer to 53'   Jacksonville
                                                                          BMC
4/24/2004    6/30/2005      30313         802        Whole Trip;      Jacksonville   138,090    552,359         0             552,359
                                                       Increase          BMC to
                                                     trailer to 53'   Atlanta BMC
5/15/2004    6/30/2005      30314         801         Eliminate       Atlanta BMC    40,121     160,484         0             160,484
                                                       Monday;         to Detroit
                                                    Increase truck        BMC
                                                        to 53'
5/15/2004    6/30/2005      30314         801         Eliminate 8     Atlanta BMC     6,172     24,690          0             24,690
                                                       Holidays;       to Detroit
                                                    Increase truck        BMC
                                                      size to 53'
5/15/2004    6/30/2005      30314         802         Eliminate       Detroit BMC    40,121     160,484         0             160,484
                                                       Monday;         to Atlanta
                                                    Increase truck        BMC
                                                        to 53'




                                                                       9
Surface Transportation – Bulk Mail Center Highway                                                                        NL-AR-05-005
 Transportation Routes – Southeast Area


Effective
 Date of     End Date                                  Specific                     Annual    Estimated
   Last          of          HCR         Trip        Recommen-        Origin to     Budget     Contract   Cancellation     Estimated
 Change      Contract      Number       Number          dation       Destination     Cost        Cost        Fees         Cost Savings
5/15/2004    6/30/2005      30314         802         Eliminate 8    Detroit BMC     6,172      24,690        0              24,690
                                                       Holidays;      to Atlanta
                                                    Increase truck       BMC
                                                      size to 53'
6/12/2004    6/30/2006      32210         801       Service Point    Jacksonville    8,782     11,709        1,464           10,245
                                                     Elimination       BMC to
                                                                     Detroit BMC
6/12/2004    6/30/2006      32210         802       Service Point    Detroit BMC     8,782     11,709        1,464           10,245
                                                     Elimination          to
                                                                     Jacksonville
                                                                        BMC
6/12/2004    6/30/2006      32210         803         Eliminate      Jacksonville   68,949     91,932       11,492           80,441*
                                                      Tuesday          BMC to
                                                                     Detroit BMC
6/12/2004    6/30/2006      32210         804         Eliminate      Detroit BMC    68,949     91,932       11,492           80,441*
                                                     Wednesday            to
                                                                     Jacksonville
                                                                        BMC
 7/1/2004    6/30/2006      32219         801        Eliminate 5     Jacksonville    6,476      8,634        1,079            7,555
                                                     holidays on       BMC to
                                                      Mondays        Dallas BMC
 7/1/2004    6/30/2006      32219         802        Eliminate 5     Dallas BMC      6,458      8,610        1,076            7,534
                                                     holidays on          to
                                                      Mondays        Jacksonville
                                                                        BMC
6/12/2004    6/30/2006      32290         904        Whole Trip       Tampa to      120,658    160,878      20,110           140,768
                                                                     Jacksonville
                                                                        P&DC
6/12/2004    6/30/2006      32290         905        Whole Trip      Jacksonville   108,318    144,424      18,053           126,371
                                                                      P&DC to
                                                                       Tampa




                                                                     10
Surface Transportation – Bulk Mail Center Highway                                                                       NL-AR-05-005
 Transportation Routes – Southeast Area


Effective
 Date of     End Date                                 Specific                      Annual   Estimated
   Last          of          HCR         Trip       Recommen-         Origin to     Budget    Contract   Cancellation     Estimated
 Change      Contract      Number       Number         dation        Destination     Cost      Cost         Fees         Cost Savings
6/12/2004    6/30/2006      32298         803       Whole Trip;      Jacksonville   89,009    118,678      14,835          103,843
                                                      Increase          BMC to
                                                    trailer to 53'    Melbourne
                                                                        Apollo
                                                                        Annex
6/12/2004    6/30/2006      32298         804       Whole Trip;       Melbourne     89,009    118,678      14,835           103,843
                                                      Increase          Apollo
                                                    trailer to 53'     Annex to
                                                                     Jacksonville
                                                                         BMC
6/12/2004    6/30/2006      32299         803        Eliminate       Jacksonville   8,440     11,254        1,407            9,847
                                                     Saturday           BMC to
                                                                        Cocoa
6/12/2004    6/30/2006      32299         804        Eliminate        Cocoa to      8,440     11,254        1,407            9,847
                                                     Saturday        Jacksonville
                                                                         BMC
 7/1/2004    6/30/2006      38111         803        Eliminate        Memphis       20,033    26,711        3,339           23,372
                                                     Sundays            BMC to
                                                                     Atlanta BMC
 7/1/2004    6/30/2006      38111         804        Eliminate       Atlanta BMC    20,033    26,711        3,339           23,372
                                                     Sundays         to Memphis
                                                                         BMC
 7/1/2004    6/30/2006      38114         803        Eliminate        Memphis       34,102    45,469        5,684           39,786*
                                                     Monday             BMC to
                                                                      Cincinnati
                                                                         BMC
 7/1/2004    6/30/2006      38114         804        Eliminate        Cincinnati    34,102    45,469        5,684           39,786*
                                                     Monday             BMC to
                                                                      Memphis
                                                                         BMC
 7/1/2004    6/30/2006      38115         801       Eliminate 10      Memphis       12,614    16,818        2,102           14,716
                                                      Holidays          BMC to
                                                                        Denver
                                                                         BMC




                                                                      11
Surface Transportation – Bulk Mail Center Highway                                                                      NL-AR-05-005
 Transportation Routes – Southeast Area


Effective
 Date of     End Date                                 Specific                    Annual    Estimated
  Last           of          HCR         Trip       Recommen-       Origin to     Budget     Contract   Cancellation     Estimated
Change       Contract      Number       Number         dation      Destination     Cost        Cost        Fees         Cost Savings
7/1/2004     6/30/2006      38115         802       Eliminate 10     Denver       12,688      16,918       2,115           14,803
                                                      Holidays       BMC to
                                                                    Memphis
                                                                       BMC
7/10/2004    6/30/2006      38117         801       Eliminate 10    Memphis       13,399     17,865        2,233           15,632
                                                      Holidays       BMC to
                                                                    Springfield
                                                                       BMC
7/10/2004    6/30/2006      38117         802       Eliminate 10    Springfield   13,399     17,865        2,233           15,632
                                                      Holidays       BMC to
                                                                    Memphis
                                                                       BMC
5/15/2004    1/29/2005      38121         801       Eliminate 10    Memphis       31,321     125,283         0             125,283
                                                      Holidays     BMC to San
                                                                    Francisco
                                                                       BMC
5/15/2004    1/29/2005      38121         802       Eliminate 10       San        31,321     125,283         0             125,283
                                                      Holidays      Francisco
                                                                     BMC to
                                                                    Memphis
                                                                       BMC
10/2/2004    6/30/2005      38123         801       Whole Trip      Memphis       159,473    637,890         0             637,890
                                                                     BMC to
                                                                   Dallas BMC
10/2/2004    6/30/2005      38123         802       Whole Trip     Dallas BMC     159,888    639,551         0             639,551
                                                                   to Memphis
                                                                       BMC
7/10/2004    6/30/2005      38693         801        Eliminate      Memphis       22,882     91,530          0             91,530
                                                     Sundays         BMC to
                                                                    Alexandria
7/10/2004    6/30/2005      38693         802        Eliminate      Alexandria    27,217     108,867         0             108,867
                                                     Sundays       to Memphis
                                                                       BMC




                                                                   12
    Surface Transportation – Bulk Mail Center Highway                                                                                         NL-AR-05-005
     Transportation Routes – Southeast Area


    Effective
     Date of     End Date                                   Specific                            Annual        Estimated
       Last          of          HCR           Trip        Recommen-          Origin to         Budget         Contract       Cancellation      Estimated
     Change      Contract      Number         Number         dation          Destination         Cost            Cost            Fees          Cost Savings
    7/10/2004    6/30/2005      38694           801         Eliminate         Memphis           20,383          81,532            0               81,532
                                                            Tuesday            BMC to
                                                                              Gulfport
    7/10/2004    6/30/2005      38694           802          Eliminate        Gulfport to       20,383          81,532              0              81,532
                                                             Tuesday          Memphis
                                                                                BMC
              TOTALS                       521                                                $2,174,015*     $6,689,022*      $125,440*         $6,563,582*
BMC -Bulk Mail Center
P&DC - Processing and Distribution Center                                       * Minor Rounding Differences
P&DF- Processing and Distribution Facility




1
 Recommendations cover 52 trips as reflected in the report. Appendix B reflects 54 line items because HCR 30314, trips 801 & 802, involve two different
modifications. As such, to ensure clear understanding of specific trip proposals, we separated the distinct actions.




                                                                              13
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-005
 Transportation Routes – Southeast Area



                  APPENDIX C. MANAGEMENT’S COMMENTS




                                                    14
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-005
 Transportation Routes – Southeast Area




                                                    15
